DOE/IG-0509




          AUDIT                    INTEGRATED PLANNING,
                                    ACCOUNTABILITY, AND
         REPORT                      BUDGETING SYSTEM-
                                    INFORMATION SYSTEM




                                             JUNE 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                              June 28, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Report on the Integrated Planning, Accountability,
                         and Budgeting System - Information System


BACKGROUND

The Department of Energy (Department) is responsible for the world's largest environmental
remediation program resulting from the legacy of this Nation's nuclear weapons program and
government-sponsored nuclear energy research activities. About $6 billion, or one-third of the
Department's annual budget, is devoted to this critical mission component.

To support its mission, the Department's Office of Environmental Management (EM) developed
a corporate-level project management system known as the Integrated Planning, Accountability,
and Budgeting System - Information System (IPABS-IS). This system, coupled with the EM
Corporate Database, was to provide a centralized means to collect, store, and report program
information. Through the end of Fiscal Year (FY) 2000, EM had spent about $6 million for
development and operation of the system.

The objective of our audit was to determine whether IPABS-IS satisfied information technology
(IT) architecture requirements and was meeting users' information needs and Department goals.


RESULTS OF AUDIT

IPABS-IS was not integrated into the Department's Corporate Systems Information
Architecture; did not fully satisfy Department goals; and perhaps of greatest importance, did
not meet users' information needs. This despite the fact that IPABS-IS was only the latest in a
series of attempts to develop and operate a corporate-level information system. The audit
disclosed that the Department did not actively manage the system's development. In short,
Clinger-Cohen Act requirements to maximize the value of IT investments by closely
monitoring and integrating development projects into an agency-wide IT architecture were not
met. As a result, the Department spent about $6 million for a corporate-level information
system that does not fully satisfy management information needs.

We also reported that the Department could potentially save over $770,000 by utilizing
existing internet hosting capacity rather than resorting to open-market procurements.
                                              -2-


MANAGEMENT REACTION

We proposed a number of actions designed to improve system development efforts.
Management generally agreed with our recommendations and proposed corrective actions.
Management, however, took exception to our recommendation to develop specific performance
measures relating to IT systems development and operation. Management believed that
including measures for a relatively small, mission-related system development effort, when
compared to overall program budget dollars, would be misplaced in the Department's Annual
Performance Plans. We disagree. It is our opinion that focused, system specific performance
measures provide management with a valuable tool for monitoring and controlling project
development efforts. In the context of EM's mission, this will ultimately facilitate the
Department's site closure and restoration efforts.

During the course of the audit we issued an alert to management that described problems related
to the acquisition of goods and services through the Government Purchase Card program.
Management concurred with our findings and initiated corrective actions.

Attachment

cc:    Deputy Secretary
       Under Secretary
       Acting Assistant Secretary for Environmental Management
       Acting Chief Information Officer
INTEGRATED PLANNING, ACCOUNTABILITY, AND BUDGETING
SYSTEM-INFORMATION SYSTEM

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..........................................................1

                Conclusions and Observations.................................................. 1


                System Development and Operations

                Details of Finding.......................................................................4

                Recommendations and Comments ...........................................9


                Appendicies

                Scope and Methodology...........................................................11

                Prior Reports ............................................................................13

                Additional Management and Auditor Comments ......................15

                Management’s Response.........................................................19
OVERVIEW


INTRODUCTION AND   The Department of Energy (Department) is responsible for the world's
OBJECTIVE          largest environmental clean-up program. Within the Department,
                   Environmental Management (EM) has been entrusted with the mission
                   of managing and cleaning up the environmental legacy of the nation's
                   nuclear weapons program and government-sponsored nuclear energy
                   research activities. EM's operations are spread across the country and
                   are largely performed by contractors who operate government-owned
                   facilities. EM spends about $6 billion annually, or approximately one-
                   third of the Department's budget, to carry out its critical mission.

                   EM spends about $95 million on information technology (IT) annually
                   to support program efforts. Included in this amount for IT investment
                   were expenditures for the Integrated Planning, Accountability, and
                   Budgeting System - Information System (IPABS-IS). This system,
                   along with the EM Corporate Database, provided a centralized means to
                   collect, store, and report program information. The system was
                   developed as a corporate-level information system solution for program
                   management and was to ensure that:

                        •   Information provided to stakeholders was accurate, timely,
                            complete, and in accordance with agreements;
                        •   Accurate and complete information was provided to Congress
                            and taxpayers about the remaining environmental clean-up
                            liability and contractor performance; and
                        •   EM officials were provided with the information necessary to
                            ensure effective program performance.

                   In Fiscal Year (FY) 1999, EM spent about $2 million on development
                   and operation of IPABS-IS. In Fiscal Years 2000 and 2001, EM
                   budgeted about $2 million and $1 million respectively for development
                   and operation of the system. However, as of the end of Fiscal Year
                   2000, EM spent over $4 million for development and operation of the
                   system excluding Federal effort.

                   The objective of our audit was to determine whether IPABS-IS satisfied
                   IT architecture requirements and was meeting users' information needs
                   and Department goals.


CONCLUSIONS AND    IPABS-IS was not integrated into the Department's Corporate Systems
OBSERVATIONS       Information Architecture (CSIA) and did not fully satisfy Department
                   goals and meet users' information needs. Despite prior attempts at
                   developing and operating a corporate-level information system solution,

Page 1                                                     Introduction and Objective/
                                                        Conclusions and Observations
         the Department did not integrate this system's development into its
         information technology architecture project. As a consequence, there
         were project management and security weaknesses in the development
         and operation of IPABS-IS that impacted its ability to satisfy
         Department goals and meet users' information needs. The Clinger-
         Cohen Act of 1996 and Office of Management and Budget directives
         required that agencies maximize the value of IT investments by
         monitoring and integrating development into an agency-wide IT
         architecture. Contrary to these requirements, the Department did not
         actively manage or closely monitor the system's development. As a
         result, EM spent about $6 million for a corporate-level information
         system solution that does not fully satisfy management information
         needs and may not achieve the Department's architecture goals. In
         addition, the Department could potentially save over $770,000 by
         utilizing existing capacity instead of outsourcing required computing
         services over the projected remaining life of the system.

         Management should consider the issues discussed in this report when
         preparing the yearend assurance memorandum on internal controls.




                                             ____(Signed)___________
                                             Office of Inspector General




Page 2                                        Conclusions and Observations
SYSTEM DEVELOPMENT AND OPERATIONS

Architecture Integration   IPABS-IS was not integrated into the Department's Information
and System Development     Architecture and did not fully meet users' information needs and
Need Improvement           Department goals. Despite prior attempts at developing and operating a
                           corporate-level information system solution, the Department did not
                           integrate this system's development into its information technology
                           architecture project. Specifically, the Department expended about
                           $31 million for predecessor systems that were either transitional, did
                           not satisfy user needs, or never became fully operational. Even though
                           information architecture guidelines were in place and available for use,
                           the Department did not require the IPABS-IS development effort to
                           adopt this disciplined approach to development. As a consequence,
                           there were project management and security weaknesses in the
                           development and operation of IPABS-IS that impacted its ability to
                           satisfy Department goals and meet users' information needs.

                                          Corporate Systems Development History

                           A number of past attempts by the Department to develop and operate a
                           corporate-level information system solution for the management of
                           environmental activities have not been successful. For example, the
                           U.S. General Accounting Office reported in September 1992, that the
                           Department spent eight years and about $24 million dollars developing
                           a system that did not satisfy management needs. From 1994 to 1997,
                           EM proceeded with the design and development of the Program
                           Management and Control (PMC) system. Despite the expenditure of
                           over $5.8 million and three years of effort, the development of this
                           system, which would have provided information for managing and
                           reporting on environmental and waste management activities, was
                           terminated prior to becoming fully operational. Following the decision
                           to terminate PMC in 1997, EM expended more than $700,000 for the
                           development and operation of an interim system whose functionality
                           was incorporated into IPABS-IS. We were unable to obtain specific
                           formal justification or supporting documentation for the cancellation of
                           PMC.

                                                   Architecture Integration

                           Despite unsuccessful attempts at developing and operating a corporate-
                           level information system solution, the Department did not integrate
                           IPABS-IS development into its information technology architecture
                           project. The information technology architecture project was to change
                           the way the Department manages IT by fundamentally restructuring
                           how decisions were made for corporate systems. Investments in



Page 3
                                                                                Details of Finding
         corporate systems were to be justified based on a corporate view and
         rigorous methodology. The project's vision was to ensure that
         applicable provisions of the Clinger-Cohen Act were met and that
         cross-cutting business functions were identified and not duplicated by
         multiple corporate-level systems. While IPABS-IS was a significant
         corporate-level information system that was initially considered for
         inclusion in the Department's projected $220 million architecture
         project, it was never formally integrated into the project.

                       Development and Operational Weaknesses

         Project management and security weaknesses in the development and
         operation of IPABS-IS impacted its ability to satisfy Department goals
         and meet users' information needs. For example, the Department's
         software engineering methodology, a primary control designed to
         introduce discipline into the development process, was not always
         followed. Procurement efforts and the accumulation of costs associated
         with development were not properly managed or controlled. In
         addition, the system did not fully satisfy Department goals or meet
         certain users' information needs, and suffered from weaknesses in the
         security and continuity of operations areas.

                        Software Engineering Methodology

         While a number of the required elements had been completed, the
         development and operation of IPABS-IS did not always follow the
         Department's software engineering methodology. EM initially
         complied with requirements to develop a system project plan, feasibility
         statement, and other required documents. Despite major scope changes
         such as a conversion of the system database, however, the project plan
         was not updated as required. EM spent over $300,000 on the database
         conversion without formal justification and without updating the project
         plan. The project plan did not contain an overall project schedule and
         was not consistently followed. Also, plans for training, installation,
         overall project testing, and acquisitions were not developed.

                        Procurement and Cost Controls

         During our audit, we observed a number of questionable system related
         procurement transactions. Specifically, purchases appeared to have
         been split to avoid Government Purchase Card (GPC) limits and
         competition requirements. We noted that Internet hosting services for
         IPABS-IS were ultimately provided by an unapproved, open-market


Page 4                                                        Details of Finding
         vendor through methods that may not have met competition
         requirements. EM neither formally justified nor performed a cost/
         benefit analysis prior to contracting for the outside Internet hosting
         provider, an action that will potentially increase web hosting costs by
         over $770,000 over the projected remaining life of the system. Also, an
         EM official without proper approval authority authorized the
         procurement of hosting services and IPABS-IS related equipment.
         These practices were generally prohibited by Federal procurement
         regulations and the Department's GPC Program guidelines.

         Because of the need for prompt management attention, we issued a
         Management Alert describing our interim findings in this area to the
         Assistant Secretary for Environmental Management on February 15,
         2001. The Assistant Secretary for Environmental Management
         responded to the Management Alert on March 6, 2001, and indicated
         that her office had begun to develop management controls to resolve the
         issues noted in the alert. EM concurred with the recommendation to
         review their procurement practices with respect to the use of GPCs at
         Headquarters to ensure that purchase practices conform to Federal and
         Department requirements. Management's response can be found in
         Appendix 4.

         In addition, we found that ineffective project cost controls contributed
         to expenditures that substantially exceeded both budgeted and reported
         costs. During the audit, EM officials could not readily provide cost
         information relating to the development and operation of the system.
         Difficulties were attributable to the lack of an effective project cost
         control mechanism capable of tracking and controlling disparate project
         costs such as procurements made through GPCs, blanket purchase
         agreements, and multiple support service contracts. The tracking of
         cost information is critical to ensuring successful project management
         and adequate control. For FY 2000, EM budgeted system costs to be
         about $2 million and reportedly spent $3.5 million. However, our
         review disclosed that over $4 million was spent in FY 2000 excluding
         Federal effort; $2 million more than budgeted and $500,000 more than
         reported by EM.

                Satisfying Department Goals and Meeting Users' Needs

         Despite a substantial investment over a number of years, the
         Department's corporate system for environmental project management
         did not fully meet certain users' information needs. While the system
         replaced various data collection systems and achieved Year 2000
         compliance, it did not provide Headquarters and Field personnel with


Page 5                                                         Detail of Finding
         timely information needed for project management. EM reported that
         three of eleven locations were utilizing IPABS-IS as their sole project
         management system. Other locations sampled during our review were
         operating supplemental systems for project management at a substantial
         cost to the Department. For instance, the National Energy Technology
         Laboratory was operating the Project Management Information System
         at a cost of about $400,000 per year. In addition, the Savannah River
         Site spent about $100,000 annually to operate the Budget Execution
         Formulation System to track EM related contractor costs. In addition,
         IPABS-IS' electronic interfaces and data exchanges with other
         Department and EM systems had not been integrated as expected. For
         instance, EM reported that efforts to integrate the system with the
         Departmental budgetary and fund distribution system had not had much
         success until recently. Other legacy project management systems such
         as the EM's Technology Management System (TMS) have not been
         integrated into IPABS-IS.

         Despite the expenditure of about $6 million and over three years of
         effort, IPABS-IS does not completely satisfy system development goals
         and the Department's broader goal of improving project management.
         Contrary to design goals, the system had not eliminated all duplicative
         systems and did not consistently supply timely data necessary for
         project management. Project management weaknesses related to not
         adhering to the software engineering methodology, project scheduling
         and cost control, and procurement practices are symptomatic of the
         problems the Department seeks to mitigate through its current project
         management reform initiative. As noted in the Department's Fiscal
         Year 2000 Performance and Accountability Report, project
         management remains one of the top 12 management challenges.

                       System Security and Continuity of Operations

         Although a number of computer security controls were in place, certain
         access controls and controls related to continuity of operations were
         inadequate. Specifically, the approved security plan and other related
         procedures did not properly provide security awareness and training
         detail, adequately address periodic review and removal of users, and did
         not identify the proper security official. Additionally, testing of system
         access controls revealed that former EM employees and other
         individuals without valid system needs were not purged from access
         lists and formal authorization was not required for system access.
         Finally, a continuity of operation agreement did not exist for the system


Page 6                                                          Detail of Finding
                               and continuity testing had not been performed as required. After we
                               pointed them out, EM moved immediately to correct weaknesses in
                               certain system access practices and in the system security plan approval
                               process.


System Development and         The Clinger-Cohen Act and Office of Management and Budget
Operational Requirements       directives require that agencies maximize the value of investments and
                               that all development projects be closely monitored and integrated into
                               an agency-wide IT architecture. The Clinger-Cohen Act specifically
                               requires Federal agencies to adopt a comprehensive approach to
                               acquiring and managing information technology. It also directs the
                               respective agency Chief Information Officer (CIO) to monitor all
                               information technology programs for performance issues and provide
                               advice to the agency head on whether to continue, modify, or terminate
                               projects. Furthermore, both Congress and the Office of Management
                               and Budget (OMB) stipulate, through Clinger-Cohen and Circular A-
                               130 respectively, that financial decision-making for IT investments
                               shall be linked to the agency's strategic plans and their IT architecture.

                               In addition, the OMB Circular A-130 requires Federal agencies to
                               establish a level of security for information systems that is
                               commensurate with the risk and magnitude of the harm that would
                               result from the loss, misuse, or unauthorized access to, or modification
                               of, the information contained in the systems. The Circular requires the
                               incorporation of security features and controls through all phases of the
                               system lifecycle, including development and operation. Among others,
                               access controls commensurate with data sensitivity are a prominent
                               requirement for all information systems. Circular A-130 also requires
                               continuity of operations planning and testing.


Architecture Integration not   The Department did not actively manage or closely monitor the
Required and Insufficient      system's development. For example, the Department did not comply
Project Monitoring             with Clinger-Cohen requirements to actively manage the system by
                               integrating system development with its IT architecture project. The
                               Office of the CIO was also not required and did not closely monitor
                               development of the system for attributes such as cost, schedule, and
                               general project management. Further, the absence of specific
                               performance measures adversely impacted EM's development and
                               operation of the system.




Page 7                                                                              Details of Findings
                                 Architecture Integration

         Even though the Department had been working on a corporate-level IT
         architecture since FY 1995, Departmental elements were not required to
         integrate the development of corporate-level systems into the project.
         The architecture effort documented the Department's corporate business
         activities, data needs, applications requirements, and provided an
         overall framework for defining corporate applications and data, as well
         as prioritization for systems modernization. Despite the projected
         investment of $220 million and the potential for substantially improving
         systems development efforts, Departmental elements were only
         encouraged, but not required, to utilize the architecture for new or
         ongoing projects. Because utilization of the architecture was not
         mandatory, reengineered or renamed systems could continue
         development in perpetuity without being brought under the disciplined
         development structure.

                                    CIO Monitoring

         Despite Clinger-Cohen Act requirements, the Department did not
         closely monitor the IPABS-IS project. The Department did not require
         the Office of the CIO to be specifically involved in monitoring the
         development and operation of the system. Based on its decentralized
         approach to application software development, the Department
         delegated all monitoring and oversight responsibility to program-level
         officials. As we pointed out in our report on Corporate and Standalone
         Information System Development (DOE/IG-0485), the Department
         delegated development and procurement authority for systems costing
         $50 million or less to Field sites and Program Offices thus excluding
         virtually all systems from the CIO's review and concurrence process.

                                   Performance Goals

         The Department had not developed specific performance goals for EM's
         information technology efforts as required by the Government
         Performance and Results Act of 1993 (GPRA). For instance, the
         Department's Fiscal Year 2001 Budget Request addressed the
         importance of IPABS-IS to accomplishing EM's mission goals.
         However, the Department's Annual Performance Plan did not contain
         any specific performance goals related to IPABS-IS development and
         operation. The Performance Plan also did not have specific goals for
         IPABS-IS integration into the architecture effort. GPRA requires


Page 8                                                         Detail of Finding
                      Federal agencies to establish clear and measurable performance goals
                      for all critical programs. Without specific goals, the Department lacked
                      a basis to measure and demonstrate its performance in this important
                      area.


Ineffective Use of    As a result, the Department spent about $6 million for a corporate-level
Resources             information system solution that does not fully satisfy management
                      information needs and may not achieve the Department's architecture
                      goals. In addition, the Department could potentially save over
                      $770,000 by utilizing existing capacity instead of outsourcing required
                      computing services over the projected remaining life of the system.
                      Further, system security weaknesses identified in this report increased
                      the risks of malicious damage and unauthorized release of information.


RECOMMENDATIONS       We recommend that the Acting Chief Information Officer, in
                      conjunction with the Acting Assistant Secretary for Environmental
                      Management, better monitor information technology development and
                      operations by performing the following specific actions:

                          1. Require that IPABS-IS interfaces be established that are
                             consistent with Corporate Systems Information Architecture
                             components in the future;

                          2. Establish specific performance measures or goals, to be
                             included in the Department's Annual Performance Plans, for
                             improving IT system development and operation;

                          3. Immediately improve IPABS-IS access control weaknesses and
                             continuity of operations; and

                          4. Ensure that actions initiated in response to the Management
                             Alert on questionable information technology procurements are
                             completed.


MANAGEMENT REACTION   With exception of number two, management agreed with the
                      recommendations and proposed corrective actions. With regard to
                      specific performance measures, management believed that including
                      measures for a relatively small, mission-related system development
                      effort, when compared to overall program budget dollars, would be
                      misplaced in the Department's Annual Performance Plans.


Page 9                                                              Recommendations and
                                                                             Comments
AUDITOR COMMENTS   Except for recommendation number two, management's comments and
                   proposed corrective actions are responsive to the audit
                   recommendations. We disagree with management’s position regarding
                   the inclusion of focused, system specific, performance measures in the
                   Department’s Annual Performance Plan. We believe that such
                   measures, when properly implemented, provided management with a
                   valuable tool for monitoring and controlling project development
                   efforts. Additional management and auditor comments are contained in
                   Appendix 3.




Page 10                                                         Recommendations and
                                                                         Comments
Appendix 1
SCOPE         The audit was performed between August 2000 and April 2001 at
              Department Headquarters in Washington, DC, and Richland Operations
              Office in Richland, Washington. We evaluated whether IPABS-IS was
              satisfying IT architecture requirements and meeting the users'
              information needs and Department goals. Our work did not include a
              determination as to whether security weaknesses found were actually
              exploited.


METHODOLOGY   To accomplish our objectives, we:

                 •   Reviewed Federal Acquisition Regulation, Clinger-Cohen,
                     GPRA, OMB Circulars, Departmental Orders, Notices, and
                     guidance pertaining to information technology security,
                     acquisition, development, and operation.

                 •   Reviewed Departmental budget requests, performance
                     agreements and plans, and strategic plan for compliance with
                     GPRA.

                 •   Reviewed relevant reports issued by the Office of Inspector
                     General and the General Accounting Office.

                 •   Held discussions with officials and staff in the Office of EM,
                     CIO, Chief Financial Officer, Procurement and Assistance
                     Management, and at various operations offices and contractor
                     operated facilities.

                 •   Reviewed contracts, task orders, statements of work, invoices,
                     development plans, and security procedures and practices
                     relating to IPABS-IS development and operations.

              In order to determine potential savings, we obtained information from
              the Office of Security and Emergency Operations on the charges
              associated with Internet hosting services at the Germantown
              Administrative Computing Facility. Their monthly charge of $33 per
              computer server connection was multiplied by the nine server
              connections for IPABS-IS. This monthly amount of $297 was
              multiplied by the remaining projected life of IPABS-IS, April 2001
              through September 2005. This total of $16,038 was deducted from
              $790,236, the total of the $14,634 recurring monthly charges for
              housing the computing equipment at the commercial facility over the
              same time period. We arrived at total potential savings of $774,198
              ($790,236 – $16,038).


Page 11                                                   Scope and Methodology
          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Because our review
          was limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed. Also, we did not rely on computer-
          processed data to accomplish our audit objective. An exit conference
          was held with CIO and EM representatives on June 8, 2001.




Page 12                                                 Scope and Methodology
Appendix 2
                      RELATED OFFICE OF INSPECTOR GENERAL AND
                        GENERAL ACCOUNTING OFFICE REPORTS


  •   Audit of Department of Energy's Management Information Systems for Environmental Compliance
      Activities, DOE/IG-0284, April 1990. The report pointed out that the Department did not have a
      comprehensive database of information for management's use in demonstrating compliance with
      environmental laws and related requirements. The Department met various tracking and reporting
      requirements through separate data requests and by permitting various Department offices and
      contractors to develop a multitude of systems.

  •   Audit of Department of Energy's Information Management Systems, DOE/IG-0423, August 1998.
      The report stated that the CIO lacked the authority and resources necessary to ensure development
      of information architectures at the program office level, which form the building blocks of a
      Departmental architecture. As result, the Department had not developed and implemented an
      information technology architecture, although its Strategic Plan called for the implementation of a
      Departmentwide information architecture with supporting standards by January 1998.

  •   Audit of the Department of Energy's Unclassified Computer Network Security at Selected Field
      Sites, DOE/IG-0459, February 2000. The report disclosed that six Departmental sites had
      significant internal or external weaknesses that increased the risk that their unclassified computer
      networks could be damaged by malicious attack. The need was pointed out for the Department to
      correct vulnerabilities found and establish specific goals and performance measures for improving
      the level of unclassified computer security relating to network operations.

  •   Audit of the Department of Energy's Implementation of Presidential Decision Directive 63, Critical
      Infrastructure Protection, DOE/IG-0483, September 2000. The report pointed out that the
      Department has not implemented its critical infrastructure protection plan to mitigate significant
      vulnerabilities, or assure the continuity and viability of its critical infrastructures. Therefore, the
      Department could not achieve the purpose of Presidential Decision Directive 63.

  •   Audit of the Department of Energy's Corporate and Stand-Alone Information Systems, DOE/IG-
      0485, September 2000. The report stated that the Department programs, sites, and contractors
      developed a number of administrative and programmatic information systems that duplicate the
      functionality of systems in use. Also, the Department has been unable to control such development,
      because of the lack of an application software strategy designed to reduce or eliminate duplicative
      systems.

  •   Report on Better Information Resources Needed to Accomplish Missions, United States General
      Accounting Office (GAO), GAO/IMTEC-92-53, September 1992. The report stated that the
      Department does not exercise sufficient management control to ensure that information resources
      are managed effectively and that such control over the acquisition and use of information resources
      is essential to ensure that mission needs are met and to prevent waste. The report added that the
      Department has wasted money developing information systems that did not meet users' needs in part
      because adherence was not required to Department life-cycle development methodologies.

Page 13                                                                                        Prior Reports
  •   Department of Energy's Fiscal Year 2000 Performance Plan, GAO/RCED-99-218R, July 1999.
      The report identified various management challenges, including that the Department had difficulty
      in completing large projects. The report added that from 1980 through 1996, the Department
      terminated 31 of 80 major system acquisitions, mission critical projects costing over $100 million,
      after expenditures of over $10 billion.

  •   Serious and Widespread Weaknesses Persist at Federal Agencies, GAO/AIMD-00-295, September
      2000. The report stated that evaluations of computer security published since July 1999 continue to
      show that Federal computer security is fraught with weaknesses and that as a result, critical
      operations and assets continue to be at risk. The report added that the Department did not have an
      effective program for managing technology security consistently, including identification and
      assessment of information security risks.




Page 14                                                                                     Prior Reports
Appendix 3

              ADDITIONAL MANAGEMENT AND AUDITOR COMMENTS


             The Acting Chief Information Officer and Acting Assistant Secretary
             for Environmental Management concurred with all recommendations
             except for recommendation 2. Management also provided a number of
             comments regarding proposed actions and facts presented in the report.
             A summary of management's comments and auditor's responses follow.

             Recommendation 1.

             Management Comments. Management stated that a process is being
             established within the Office of CIO and in collaboration with
             Departmental Lead Program Secretarial Officers to track IT investment
             budgets and costs at the project level. Also, management added that
             EM is currently improving the core competencies of IT professional
             staff to ensure that the requisite skills are acquired to perform effective
             management and tracking of all program-related IT projects and related
             investments.

             Management agreed with the need for IPABS-IS interfaces to the CSIA
             in the future. Management stated that the CSIA reserves a section for
             each program to develop program-specific architectures for their
             systems, and that efforts are being made to satisfy that requirement.
             Management added that the Program Office is in the process of
             converting the system's handbook into an explicitly labeled program
             enterprise architecture that is compliant with Departmental guidance.

             Auditor Comments. We consider management's proposed actions to be
             responsive to our recommendation.

             Recommendation 2.

             Management Comments. Management stated that broad measurable
             goals relative to Departmental Corporate Systems modernization have
             been submitted. Management added that specific performance
             measures relating to what is considered a relatively small, mission-
             related system development effort, when compared to overall program
             budget dollars, would be misplaced in the Department's Annual
             Performance Plans.

             Auditor Comments. We disagree with management's position regarding
             specific, focused performance measures. We believe there is a need to


Page 15                                                     Additional Management
                                                            and Auditor Comments
          establish performance goals or measures in the Department's Annual
          Performance Plans that are sufficiently detailed to permit management
          to track progress in meeting development and other important
          milestones. Such goals should contain sufficient specificity to permit
          Program officials to track, at a minimum, program budget requests,
          such as the $95 million identified for EM's overall IT investment.

          Recommendation 3.

          Management Comments. Management stated that a procedure has been
          implemented to ensure that access authorizations no longer needed are
          removed in a timely manner. Management added that other security
          related issues identified in the report have been addressed as part of a
          corrective action plan. Also, that review and testing of policies and
          procedures relating to continuity of system operations are in progress.

          Auditor Comments. We consider management's actions responsive to
          our recommendation.

          Recommendation 4.

          Management Comments. Management stated that corrective actions are
          in process and fully expected them to be completed in compliance with
          their developed schedule.

          Auditor Comments. We consider management's actions responsive to
          our recommendation.

          General Comments.

          The Acting Chief Information Officer and Acting Assistant Secretary
          for Environmental Management also provided general comments on
          issues discussed in our report. These comments, along with auditor
          responses, have been incorporated where appropriate and follow.

          Management Comments. Management disagreed that EM could save
          $770,000 by utilizing the Department's Germantown Administrative
          Computing Facility for Internet hosting services. Management added
          that the savings were overstated, and did not prove that the facility is
          functionally equivalent to the existing service provider's facility.

          Auditor Comments. We stand by our projections. Management
          provided no basis for questioning our projected savings other than to
          state that they are conducting an analysis of the issue that will not be
          completed until June 30, 2001. As acknowledged by management, a

Page 16                                              Additional Management and
                                                              Auditor Comments
          formal analysis to determine whether the existing facility was capable
          of providing similar services was never performed. It should be noted
          that the existing Departmental facility houses a number of critical
          systems, including the financial information systems, and the cost for
          maintaining the facility is largely fixed. With regard to our projection,
          management may have arrived at a similar conclusion had it performed
          an analysis prior to resorting to an open-market procurement.

          Management Comments. Management stated that the IPABS-IS
          Feasibility Task Force evaluated the $5.8 million PMC system but
          determined that a web-based approach would better align with the then
          Assistant Secretary's goals. Management added that key decision
          makers were identified for inquiry purposes.

          Auditor Comments. Information regarding a specific, formal
          justification for terminating the PMC system was not provided during
          our audit. Furthermore, we are not in a position to reconstruct or
          develop such a justification.

          Management Comments. Management believes that the assertion that
          the program overspent its budget in FY 2000 by more than $2 million is
          incorrect and that there was a lack of clarity in our report regarding the
          derivation of the over $4 million spent on the system. Management,
          however, acknowledged that the tracking of budgets and costs by the
          program needs improvement.

          Auditor Comments. Because of inadequacies in the tracking of budgets
          and costs for the system, our calculation of over $4 million spent in
          Fiscal Year 2000, excluding Federal effort, had to be derived from
          various sources that we can share with management. The budgeted
          costs of about $2 million cited in the report were extracted from the
          Report on Information Technology, OMB, Circular A-11, Exhibit 53,
          Fiscal Year 2000 total for IPABS-IS.

          Management Comments. Management believes that the Department's
          software engineering methodology was followed in principle and that
          more detailed implementation elements were documented and discussed
          in meetings in lieu of constantly updating the project plan.
          Management added that a schedule was provided showing that key
          delivery milestones were routinely met throughout the system
          development life cycle.




Page 17                                             Additional Management and
                                                             Auditor Comments
          Auditor Comments. We acknowledge that a schedule was provided
          showing key delivery milestones and reported system development and
          operating costs. However, it should be noted that the schedule was
          informal, did not reflect accurate expenditures for the system as
          determined during the audit, and disclosed that the majority of key
          delivery milestones had not been met in a timely manner. Also, it
          should be noted that the project plan, a key element of the Department's
          software engineering methodology, had not been updated to reflect
          changes that had occurred during the system life cycle since 1998.

          Management Comments. Management stated that justification, or
          direction from the Office of CIO, to convert IPABS-IS to another
          proprietary database standard is contained in the DOE Technology
          Architecture Framework Report. Management added that a complete
          transition plan for the database conversion will be completed prior to
          actually conducting the conversion. However, management also stated
          that IPABS-IS was never viewed as or intended to be a Department-
          wide corporate system that needed to be explicitly part of the
          Departmental Corporate System Information Architecture effort.

          Auditor Comments. Formal justification, such as an analysis of
          alternatives or an update to the system project plan does not exist to
          support the database conversion envisioned for IPABS-IS. The DOE
          Technology Architecture Framework Report does not clearly mandate,
          or solely support, a conversion to the particular proprietary database
          selected as cited by management.

          Management Comments. Management asserted that the scope and
          objectives for IPABS-IS developed in 1998 clearly state that the system
          was intended as a Department Headquarters system and not a field
          project management system. Management added that the observation
          about the existence of supplemental systems does not imply that the
          system did not meet its goals. However, management did acknowledge
          that work is in progress to more effectively integrate and/or link
          IPABS-IS, where possible, with the TMS and other Departmental
          systems.

          Auditor Comments. One of the objectives of IPABS-IS was to "…
          bring timely and reliable data to the desktops of Field and Headquarters
          users which are relevant to program/project management and reporting
          activities, and national policy." This factor, coupled with the fact
          certain locations were utilizing IPABS-IS as their sole project
          management system, lead us to conclude that the system was intended
          to replace existing project management systems.

Page 18                                            Additional Management and
                                                            Auditor Comments
Appendix 4




Page 19      Management’s Response
                                                                             IG Report No. : DOE/IG-0509

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
